                                                   NATIONAL SCIENCE FOUNDA
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM




          OIG initiated an investigative proactive review to assess the potential for fraud or
          mismanagement of funds in an international collaborative program. Specifically, OIG had
          processed several cases where participant support funds were converted for other uses without
          the prior approval of the program manager. The conversion of the funds for other uses meant
          that the awards did not facilitate the collaborations for which the funds were provided, rather they
          provided supply funds for the PIS' laboratories.

          OIG review the financial documents in award' in this case and subsequently requested further
          detailed information about foreign travel, book purchases, meeting expenses, and participant
          support charges to the award. The awardee2provided additional information that allowed OIG to
          resolve its concerns. This case is closed.




NSF OIG Fonn 2 ( 1 1/02)
